     MEDICAID CREDIT BALANCES 

          HOSPITAL ACCOUNTS





     'f \ '''Ylc..r'




'0


     Ol&-...flO




 OFFICE OF INSPECTOR GENERAL
 OFFICE OF ANALYSIS AND INSPECTIONS
                                      MARCH 1989
      MEDICAID CREDIT BALANCES 

           HOSPITAL ACCOUNTS





                         Richard P. Kusserow
                         INSPECTOR GENERAL




o A 1- 07 - 88- 004 70                         MARCH 1989
                                  EXECUTIVE SUMMARY

PURPOSE

The purpose of this national inspection was to determine the dollar amount of Medicaid credit
balances that exist at Medicaid- participating hospitals. In addition , the inspection identified
policies and procedures which may be a factor in creating these credit balances, or in delaying
refunds by the hospital or recovery of these funds by Medicaid State agencies in a timely man­
ner.

BACKGROUND

The Social Security Act and Federal regulations provide that Medicaid payments may be
made only when there is no third party liable for payment of services. Where a third pany
makes payment in addition to Medicaid , or the Medicaid payment is in excess of the amount
due the hospital or a duplicate payment , a credit balance is created. This amount must be
reponed or refunded in a timely manner to the Medicaid program. After being notified of a
credit balance , the Medicaid program must act promptly to recover or adjust this amount.

The Inspector General has conducted inspections of hospital Medicare credit balances since
1985. This earlier work suggested a pOtential for substantial Medicaid credit balances nation­
wide.

METHODOLOGY

This national inspection included reviewing patient accounts in a randomly selected group of
50 hospitals in five States. The States selected were California , Michigan , New York , Ohio,
and Texas. Forry-eight percent of Medicaid hospital inpatient payments are made to hospitals
in these five States.



FINDINGS

Projected Medicaid Credit Balances are Substantial

We identified Medicaid program credit balances of $723, 800 ($399 355 Federal share) in a
total of 401 credit balance accounts reviewed. The credit balances found in the sampled hospi­
tals in each State were then projected to the entire universe of Medicaid- panicipating hospitals
in each sampled State , producing tOtal projected credit balances for the five States' of
$16 369, 967 ($8, 970,198 Federal share).

If all the conditions existing in the 5 sample States were found to exist in all 50 States. the
tOtal projected credit balances to the Medicaid program could be as much as $34 104. ()l)
($20 663, 673 Federal share).
Hospitals are not Reporting Credit Balances in a Timely Manner

Fony- five days was considered to be a reasonable time period for hospitals to notify a State
agency or fiscal agent that a Medicaid credit balance exists and should be recovered. The in­
spection reviewed the procedures pertinent to record- keeping processes at the sampled hospi­
tals. Based on this information , the hospitals should be able to make notification within this
time period. Sampled hospitals had notified the State agencies of the patient credit balances in
267 (67 percent) of the 401 accounts reviewed. In 73 (27 percent) of these cases , the hospitals
notified the State agencies within 45 days of identifying the credit balances, and in 194 (73
percent) of the cases, hospitals took in excess of 45 days to nOtify the State agencies. Three
States had 158 credit balances (81 percent) for which nOtices were issued to the State agencies
over 45 days after the credit balances occurred. In 3 States , the hospitals did not repon 119 of
the 134 credit balances (89 percent) to the State agencies.

State Agencies and Fiscal Agents are not Reco).' ering Credit Balances in a Timely Manner

Ninety-six percent of the Medicaid credit balances reponed were not recovered by the State
agencies within 60 days of the hospital's notice. We established 60 days as a reasonable time
period for a State agency or fiscal agent to take recovery action on a Medicaid credit balance
after being notified by a hospital. The 60- day period is consistent with the time frame in sec­
tion 95 I 2 , the Consolidated Omnibus Budget Reconciliation Act (COBRA) of 1985 , Public
Law 99- 272. This section of the act addresses the State agency s responsibility to recover an
overpayment--once identified-- from a person or entity in a 60- day period before a reduction is
made in the Federal payment to that State equal to the amount of the overpayment. A review
of inspection data indicated that two States made about 75 percent of the recoveries , while the
other three States recovered the remaining 25 percent.

RECOMMENDATIONS

 The Health Care Financing Administration (HCFA) Should Take Action to Recm' er or Ad­
just Credit Balances

      The HCFA should instruct the sampled State agencies to recover or adjust actual and
      projected credit balances identified by this inspection. Also, national savings in excess
      of $34 million are projected if all States were directed to recover or adjust outstanding
      credit balances.

The HCFA Should Establish and Enforce Time Frames for Reporting and ReCOJ'erillg
Credit Balances

     The HCFA should develop regulations and policy guidelines that provide for timely
     reponing of credit balances by hospitals and recovery of credit balances from State
     agencies. We recommend n) that hospitals be required to report credit balances to SUt\.
      agencies within 45 days from their occurrence, and (2) that HCF A enforce the COB R.
      requirement that State agencies refund credit balances within 60 days after being
      notified by hospitals.

      State agencies could detect Medicaid credit balances through review of hospital records
      on a special request or periodic basis. Recovery could be carred out through
      procedures such as utilizing the Form HCFA- 64 quarerly expenditure report for credit
      balance information and assessing interest on the Federal share of credit balances not
      reported in a timely manner.

AGENCY COMMENTS

The HCFA reviewed the report and generaIly agreed with the Office of Inspector General.
The HCFA undertook a number of initiatives to address the presence of Medicaid credit
balances in hospitals. These efforts focused on conducting hospital reviews, developing
regional office guides , and establishing a monitoring system for State coIlection efforts. The
HCFA also made several observations on the report. They addressed causes of credit
balances, State monitoring mechanisms , foIIow-up actions on specific States mentioned in the
report , and reiteration of existing HCFA policy and procedures related to credit balances. Our
offce provided assistance to the Kansas City HCFA regional office in their efforts to conduct
reviews and identify credit balances in hospitals.

In general , we agree with HCFA' s comments and have modified our recommendations accord­
ingly. However, HCFA disagreed with our recommendation to establish time frames for
reponing and refunding credit balances. We continue to believe that time frames would
ensure prompt recovery of these Medicaid funds.




                                               111
                                 y ................................................................................... ..... ............

                                                                    ......... ......... .................................................
                           ................................................................................... ........            .....




                                                       TABLE OF CONTENTS


 EXECUTIVE SUMMARY

 I NTROD UCTIO               N ..........................
                                                              ............................................................................. 1
         Pu rpose
                                                                                                                                ................. 1
         Backg ro un           d .......... .............. .............
                                                                            .................................... ............................ 1
         Methodo I og

FI N DI NGS
                    ................................................................................................................. 4

R ECOM MEN DA TIONS
                                           ............................................................................................. 7

APP EN DIX 
           A .................................. ....... 

        Tables
APP EN DIX             B ...................................... ................... ............................................. 


        HCFA' s Comments
                                                                                                                                               .:5
                                        INTRODUCTION



PURPOSE

The purpose of this national inspection was to determne the doIlar amount of Medicaid credit
balances at a randomly selected sample of Medicaid- paricipating hospitals in five States. In
addition , the inspection was conducted to identify any policy or procedural weaknesses which
may be factors in the creation of credit balances. Delays by hospitals in reponing or refunding
credit balance amounts, and delays by the Medicaid State agencies or fiscal agents in recover­
ing or adjusting credit balances, were also examined.


BACKGROUND

The Social Security Act provides for payments to States , on the basis of a Federal medical as­
sistance percentage, for part of their expenditures for services under an approved Medicaid
State plan. The Federal- State match is computed by a formula takng into consideration the
relationship of a State s per capita income to the national average per capita income. Under
the formula , the Federal portion of the match cannot be less than 50 percent or more than 83
percent. These Federal medical assistance percentages are recalculated on an annual basis.


Section 1902(a)(25) of the Social Security Act provides that the State or local agency ad­
ministering the Medicaid program wil take all reasonable measures to determne the legal
liability of third paries to pay for care and services arsing from injury, disease , or disability.
A Medicaid State agency is defined as the entity established or designated to administer the
State s Medicaid program , which includes processing and paying vendor claims. A fiscal
agent is defined as an entity under contract with the State agency to process and pay vendor
claims for services and items covered by Medicaid.

Federal regulation 42 CFR 433. 139 outlines provisions the State agencies must foIIow in pay­
ment of claims where a third party has liability for payment. In most cases, the Medicaid
program has payment liability only for that portion of the patient s biI not covered by third-
party resources , such as health or accident insurance , workers ' compensation , Veterans Ad­
ministration , Medicare , or other primary coverage. When a third party and the Medicaid
program both pay for the same services, a Medicaid credit balance is created , which is
reflected on the patient s ledger account at the hospital. Among the other causes of Medicaid
credit balances are Medicaid payments in excess of the amount due and duplicate Medicaid
payments for the same services.

Both the State agency or fiscal agent , and the hospital , have responsibilities when credit balan­
ces are created and identified. The hospital must report or refund the amount of the credit
balance to the a!!ency or agent within a " reasonable time " after its identification. Sub­
sequently, the a gency or agent mu st recowr or adjust future hospital payments in the amount
                                                                                                     :,,




 of the credit balance in a timely manner. It is essential that credit balances be identified and
 recovered. When those responsibilities are not met , both the Federal and State governments
 incur losses.

 The Office of Inspector General (OIG) has studied this issue in the past. For example:

       A 1985 OIG regional inspection of Medicare credit balances was expanded to a national
       inspection (Credit Balances in Medicare Beneficiary Hospital Accounts
       #OPI- 85- 040). The result of this national inspection was a projected amount of
       Medicare credit balances in excess of $164 milion for all participating hospitals.

       More recently, a regional review of patient accounts in three large metropolitan
       hospitals was conducted to determine the extent and age of any existing Medicaid credit
       balances. The analysis of documentation and conversations with hospital personnel
       during this review resulted in the discovery of outstanding Medicaid credit balances in
       excess of $300 000. Further , it was determined that almost two- thirds of the
       outstanding credit balances were over 6 months old. Since this was a preinspection or
       informal review , no report was issued.

These previous activities indicated that a national inspection would reveal substantial credir
balances in Medicaid- participating hospitals.

METHODOLOGY

A sample of hospitals was chosen from the universe of all Medicaid- participating hospitals     in
each of five States selected for review. These States are: California , Michigan , New York
Ohio , and Texas.

These States were selected for review because they made a substantial amount (48 percent) of
the Medicaid medical vendor payments for inpatient services in general hospitals in Fiscal
Year 1986. These five States were paid $5, 004,722 371 out of the national total of
$10 369 810 730.

In each State, 10 hospitals were selected using simple random sampling stratified by bed sizc.
The final sample was comprised of 10 hospitals with less than 100 beds , 16 hospitals with De-
tween 100 and 399 beds, and 24 hospitals which had 400 or more beds.

Each hospital in the sample was requested to provide the OIG with listings of outstanding
Medicaid credit balances through October 3 I , 1987. Patients with Medicaid payments 1I ndn
$50 were excluded. Based upon those lists, samples of up to 50 patients were selected. ror
each of the patients selected , the hospitals provided copies of patient ledger records for rn 1,,
to validate the Medicaid credit balance. Based upon the number of accounts to be re\"ie\\ l'd.
some patient ledger accounts were, reviewed at the hospital and the others were provided II) !"
01G by mail. Analysis of the patient ledger accounts was done to determine the existelkl' I':
valid Medicaid credit balance and the amount of the credit balance. Funher review deter­
mined the date the hospital notified the State agency or fiscal agent of the existence of the
Medicaid credit balance, and the length of time it took the agency or agent to recover or adjust
the amount of the Medicaid credit balance.
                                           FINDINGS


Projected Medicaid Credit Balances are Substantial

The inspection identified 401 credit balance accounts totaling $723, 800 ($399 355 Federal
share) to be hospital credits due the Medicaid program (appendix A , table I). Of the 401 ac­
counts, the State agency was notified of the existence of a credit balance on 267 accounts.
Credit balances on the other 134 accounts were identified only as pan of this review. These
Medicaid credit balances resulted from third- pany payments, duplicate payments , and pay­
ments by the State agency or fiscal agent in excess of the amount due to the hospitals.

Projecting the amount of Medicaid credit balances for each sample State to all Medicaid- par-
ticipating hospitals in each State resulted in total estimated credit balances in the five States of
$16 369 967 ($8, 970, 198 Federal share).

Assuming all conditions relative to the five sample States exist in all the States, the projected
credit balances to the Medicaid program could be as much as $34 104 098 nationally
($20, 663 673 Federal share). See appendix A , table II.

Hospitals are not Reporting Credit Balances in a Timely Manner or Not Reporting Any
Credit Balances at All

It was determined that numerous hospitals in the sample were not prompt in advising the
State agency or fiscal agent when Medicaid credit balances occurred and, in many cases , had
not notified the agency or agent at all.

This inspection reviewed the record- keeping processes at the sample hospitals. We found that
the hospitals ' procedures should enable them to make notification of a credit balance within
45 days of the date the balance occurred. This would be a reasonable time period for hospitals
to notify a State agency or fiscal agent that a Medicaid credit balance had been created and
recovery should be made. This inspection did not include onsite reviews at State agencies nor
did it involve reviewing Fonn HCFA- 64 quanerly expenditure repons. In 73 percent of the
cases, the hospitals exceeded the 45 days (appendix A , table III). Eighty-one percent of these
cases in which notices were issued more than 45 days after the credit balances occurred were
found in Michigan , New York , and Ohio.
                                            Figure 1


               TIMELINESS OF HOSPITAL NOTIFICATION TO STATE


                                                                         OVER 45 DAYS

                  73%                                                    0 - 45 DAYS




                                                                   27%




                     Hospital Credit Balances with Notices - 267



In 33 percent of the credit balances reviewed , the hospitals were found not to have notified the
State agency or fiscal agent that a Medicaid credit balance ever existed (appendix A , table IV).
Inspection data also indicated that in California , Michigan , and Ohio, 89 percent of credit
balances (119) were never reported by the hospitals to the State agencies.

Currently, no incentive exists for hospitals to identify credit balances. Although hospitals
have a responsibility to report credit balances, the inspection found that hospitals gave a low
priority to this function.

State Agencies and Fiscal Agents are not Recovering Credit Balances in a Timely Manner

The inspection revealed that State agencies or fiscal agents were not diligent in recovering or
adjusting the 267 credit balance accounts after notification by the hospitals. This was true
even when hospitals issued several notices. A comparative time frame appears in section
9512 , the Consolidated Omnibus Budget Reconciliation Act (COBRA) of 1985 , Public Law
99- 272. The act indicates that 60 days is the time period for a State agency or fiscal agent to
recover overpayments for refund to the Health Care Financing Administration (HCFA). This
section of the act speIIs out the State s responsibility to recover an overpayment , once iden­
tified , from a person or entity in a 60- day period before a reduction is made in the Federal pay­
ment to that State equal to the amount of the overpayment. Data show that 96 percent of the
credit balances were not recovered within 60 days of nOtice by the hospital. Inspection data in­
dicated that California and New York made about 75 percent of the recoveries, while the other
three States made the remaining 25 percent of the recoveries. Numerous cases existed where
the time period for recovery far exceeded the 60- day period (appendix A, table V). The age of
credit balances for all sample States is shown in appendix A , table VI.
                           Figure 2




  TIMELINESS OF CREDIT BALANCE REC. JVERY
          FOR THE SAMPLED STATES


                                                               OVER 60 DAYS
96%
                                                           EZ 0 - 60 DAYS




      Credit Balances with Notices sent   by   the Hospitals

                   to the States - 267/401
                                                RECOMMENDA TIONS


The HCFA Should Take Action to Recover or Adjust Credit Balances

     The HCFA should instruct the sampled State agencies to recover or adjust actual and
     projected credit balance accounts identified by this inspection. NationaIly, the projected
     program savings would exceed $34 milion if all States were directed to identify and
     recover or adjust outstanding credit balances.

The HCFA Should Establish and Enforce Time Frames for Reporting and RecoJ.ering
Credit Balances

     The HCF A should enfore the COBRA provision (section 9512) which requires 

                                                                                                                     tates to
     refund any outstanding credit balances. This could be more effectively accomplished by
     issuing regulations or guidelines setting specific time frames for action by hospitals and
     States. For example:

                Hospitals could be required to report credit balances to State agencies within 45
                days beginning with the date the credit balance occurs.

                State agencies could be required to refund credit balances to HCFA within 60
                days after notification by hospitals that a credit balance exists , in compliance
                with COBRA.

    State agencies could detect Medicaid credit balances through review of hospital records
    on a special request or periodic basis. (The Medicare program has effectively utilized
    programs of special reviews and reviews of provider records conducted during cyclical
    audits.

    Procedures that HCFA could utilize to carr out                                 recovery and   reponing of program
    credit balances include the following examples:

               utilizing the Form HCFA- 64 quarterly expenditure reporting process as a
               mechanism to obtain credit balance information , and

               assessing interest on the Federal share of credit balances not reported i:                         a t i 11(' I
               manner.
AGENCY COMMENTS

We solicited and received comments on the draft report from HCFA. They indicated agree­
ment that credit balances are a problem which requires attention and indicated several initia­
tives begun or to be implemented to identify and recover credit balances. One of these
initiatives involved the review of two States for identification of outstanding Medicaid credit
balances. After a successful initial review in Region VI , several additional States have been
selected for HCFA' s expanded study. They have developed a guide to assist regional offices in
recovering credit balances as well as expanding upon policy and procedures to focus on credit
balances. The HCFA commented on the causes of credit balances and also indicated that im­
mediate follow-up action was being taken with States identified in this report. In addition
HCFA' s position on implementing current law on the coIlection of overpayments was
referenced. A copy of HCFA' s response to the draft report is included in the appendix.

The HCFA has taken initiatives to identify Medicaid credit balances in selected States. The
HCFA Kansas City Regional Office requested the assistance of the OIG Regional Office of
Analysis and Inspections in preparng a regional contract proposal which would be utilized to
review hospital records for Medicaid credit balances. Our office provided a brief summary of
the activity to identify hospital credit balances. In addition , we outlined our methodology of
identifying the existence of Medicaid credit balances in a hospital in the Kansas City Region
which was not part of the sample of States utilized for this inspection.

OIG RESPONSE

We are in general agreement with HCFA' s comments. We have modified our recommendation
to include enforcement of the recovery provisions under section 9512 of COBRA. Hov,, ever.
we continue to believe that establishing time frames within which credit balances must be
reported by hospitals and refunded by States would have the effect of ensuring timely
recovery of Federal funds.
                                           APPENDIX A

                                              TABLES



                                               TABLE I

                   Medicaid Credit Balances Identified in Hospital
                          Inpatient Records in Sampled States

                Total
                Number
                               Third-Party      Duplicate         Other            Total State
State           Balances      Payer             Payments          Payments         Payments

                               $ 99, 913        $ 1   654         $ 23 858          $125,425

                101             268,426               877               089          290, 392

                                     053              651               184               888

                105             105 593          15, 274                262          188, 129

                                   7,497         10,421                048                966


TOTALS          401           $572,482          $ 38 877         $112,441           $723 800


*Primarily payments by the State agency or fiscal agent in excess of the amount due the hospitals.
                                              TABLE II

                                  Projected Credit Balances


    Sample        State        State            Federal        Federal         Projected
    States        Percent      Share            Percent        Share           Balances


                   50.             602 085     50.                602 085         204 170

                   43.           744,168        56.48             561 366         305 534

                   50.           315 236        50.               315, 236        630,472

                   40.           575, 058       59.               275,939         850 997

                   43.            163, 222      56.               215, 572        378, 794


    Total                          399 769                      $8, 970 198    $16 369, 967




Within each State , the projections were made by multiplying the average dollar amount of
credit balances found in tile sample times the number of hospitals in the appropriate strata.
The varances have been calculated using the appropriate equations for each State and for the
total of the five States.

If similar circumstances existed in all the States as were found in the five sample States, which
represents 48 percent of vendor payments in Fiscal Year 1986 , as much as $34 104 098
($20, 663, 673 Federal share) in credit balances may exist nationaIly.

The Federal medical assistance percentages are established in conformance with criteria in sec­
tion 1902(a)(2) of the Social Security Act; they vary for each State.

NOte: The current rate (Fiscal Year 1989) is the basis for refund purposes. Refunds are made
at the rate currently in effect , rather than the rate at the time the credit balance was created.
                                                                 TABLE II

   Time Period Within Which Hospitals Notified State Agency/Fiscal Agent
                       of Medicaid Credit Balances

                    TOTAL NUMBER                                                  NOTICES CONSIDERED
                    OF NOTICES ISSUED                                             TIMELY (0- 45 DAYS)
                    BY HOSPITALS                                                  (27% OF NOTICES ISSUED)

                                                                                               Percent      Dollar
                                                                            Number of                       Amt. of
                                                          Percent           Notices            Notices      Cr. Bal.
         No. of                     No. With                                Issued             Issued       Notices
      Credit                        Notices               Notices           (0-                (0-          (0­
State Balances                      Issued                Issued            Days)              Days)        Days)

                                                                                                             $31 132
          101                                                                                                    128
                                                                                                                 25,472
          105                                                                                                       328
                                                                                                                    880

Total 401                           267                                                                     $106 940



                           Notices Not Considered Timely (Over                          45   Days)
                                                (73% ot Notices Issued)

                                                                  Percent of                         Dollar Am/.
                    No.                                           Notices                            ofCr. Bal.
                    Notices                                       Issued                             Notices
                    Over       45                                 Over                               Over 45
 State              Days                                          Days                               Days

                                                                                                     $ 62, 263
                                                                                                      216, 009
                                                                                                       70, 223
                                                                                                       91, 541
                                                                                                           535

 Total              194                                                                              $446, 571

  Notices were issued by hospitals in               67   perc:enl of the credit balances reviewed.




                                                                     I I

                                                      TABLE IV

       Medicaid Credit Balances in Which No Notice Was Issued to the State
                       Agency/Fiscal Agent by the Hospital

                        Number           Balances          Dollar Amount              Average
                                         with No           of No                      Dollar
   State                Balances         Notices           Notices                    Amount

                                                           $ 32 030                    $ 915

                        101                                  65, 255                        250

                                                                   193                      439

                        105                                  56, 260                        023

                                                                   551                     1,455

  Total                 401              134               $170, 289                        271

No notices were issued by hospitals in     33   percent of the credit balances reviewed.
                                                 TABLE v


                  Time Period Within Which State Agency/Fiscal Agent
                    Recovered/Adjusted the Medicaid Credit Balance

                                                               Dollar            Number         Dollar
                           Number of         Number of         Amount           for             Amount for
      Number of            Notices           Recoveries        of Recovery       Recovery       Recovery
      Credit               Issued by         Within 60         Within 60         Over 60        Over 60
State Balances             Hospitals         Days              Days              Days           Days

                                                               $ 3, 138                         $ 90, 257

         101                                                       346                          203 790

                                                                   338                                358

         105                                                       180                           131 689

                                                                  - 0-                             7,415

Total 401                  267                                 $26,002          256            $527, 509

Ninety-six percent of credit balances were not recovered within 60 days after notifcation by the Iwspital.
                                               TABLE VI

                     Age of Outstanding Medicaid Credit Balances
                                  (Dollar Amounts)

                          31­              61-               91-180           Over 180      Total
State Days                Days             Days              Days             Days          Payments

         $ 8,029          $13, 715          $ 4 872          $ 7, 350         $91,459        $125,425

             065               544              315          27, 731          198, 737        290,392

             500               710              531           19, 357              790             888

             536              -0­               672           16, 651         169, 270        188 129

             707             1,497              388              202            10, 172            966

        $67 837           $45,466          $50 778          $74 291           $485,428      $723, 800
         (9.4%)            (6. 3%)          (7. 0%)         (10.3%)            (67. 0%)       (100%)

*This column represents those balances outstanding which exceed 180 days but represent a loss to the
Medicaid program in that Federal and State monies have not been recovered.
  APPENDIX B


HCFA' s COMMENTS
  ...."             -----               ----                                      \,.                    - -                ./)
                                                                                                                             -;'''.                . --
                                                                                                                                                    /."'-

                                                                                                                                      c ,

    ...,,                                                                 "-

                                                                                                                      .:i '1_ (- r- /.
                    DEPARTMENT OF HEALTH &.                     Ht..'-A        SERVICES
                                                                                                                      Health Ire 7.
                                                                                                                      F,niic'ng Adm,n'stra:,o-

                                                                                                                  N.;
            'zL.
                                                         -- ;EC

    Dlte                                                                                                 crFlCf. Dr !"F                  ERAL
                   Wi1             m L Roper ,   M. D.
   From            Adm1n1Strator
                                                         /
                                                                                                          1988 DEC          -8 PH 2: 17
                   OIG Draft Report: II
   SubJect               88- 00470
                   OAI - 07 -
                                                    Medicaid Credit Balances in Hospital
                                                                                                                Acc           EC€IV
                   The Inspector General
                                                                                    DEe      1. - 19;;(
                   Offi ce of the Secretary
                                                                                                                        OFFICE OF
                                                                                                                   INSPECTOR
                                                                                                                                         GENF.
                   We reviewed the draft report and agree, in                                  principle, with the OIG. The
                   presence of credi t bal ances in the Medi
                                                             cai d accounts recei vabl e of
                   providers (particularly hospitals) is a problem requiring HCFA'

                   attention. 1n            fact, we
                                             recently undertook a substantial Medicaid
                   financial management initiative to explore this problem. Following 

                   brief chronology of our efforts:                                         is a



                                     During Fiscal Year (FY) 1987 , Region VI contracted with an

                                     accounting firm to identify and analyze Medicaid and Medicare

                                     credit balances maintained by hospitals in
                                                                                 Oklahomand
                                     Louisiana. Six hospitals were reviewed in each   State. The
                                     reviews resulted in questioning $388,
                                                                           962 in Federal financial

                                     participation (FFP) in Oklahoma, and $519,
                                                                                718 FFP in Louisiana

                                     for Medicaid credit balances alone.

                                     Because of the success of the Region VI contract reviews, eight

                                     more reviews of hospital credit balances are scheduled for FY

                                     1989. The     States planned               for        review are Maryland, Virginia,
                                     South Carolina, Texas, Missouri , California, Oregon
                                                                                          , and the
                                     District of Co1umbJa.


                                      On September 29, 1988, HCFA issued a Financial
                                                                                       Managemnt Review
                                      Guide for Provider Maintained Credit Balances in Medicaid

                                     Accounts Receivable. The guide explores third party
                                     overpayment, and cost reimbursement policy affecting this
                                                                                                                            liability,
                                     and provi des procedures to the regi ona 1
                                                                                                    issue
                                     these  rev i ews.
                                                                                offi ces for conduct; ng


                                    In addition, as part of our State Performance Evaluation and

                                    Comprehensive Test of Reimbursement Under Medicaid
                                                                                       (SPECTRUM;
                                    program, we monitor the collection efforts of the States 

                                    recovering known Medicaid credit                         balances.
                                                                                During FYs 1987 d
                                    1988, several of our SPECTRUM reviews focused on these

                                    overpayment situations.



DIG


ADM

OGC!1G

EX SEC 


DATE S7                  .J
